<html>
<title> - CONTINUING OVERSIGHT OF THE NATION'S WEATHER SATELLITE PROGRAMS: AN UPDATE ON JPSS AND GOES-R</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      CONTINUING OVERSIGHT OF THE

                  NATION'S WEATHER SATELLITE PROGRAMS:

                      AN UPDATE ON JPSS AND GOES-R
=======================================================================



                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND

                               OVERSIGHT
                             JOINT WITH THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JUNE 27, 2012

                               __________

                           Serial No. 112-94

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-731                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         PAUL D. TONKO, New York
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
VACANCY                                  
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                        Wednesday, June 27, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    22
    Written Statement............................................    24

Statement by Representative Paul D. Tonko, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    25
    Written Statement............................................    26

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    26
    Written Statement............................................    27

Statement by Representative Brad Miller, Ranking Member, 
  Subcommittee on Energy and Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    28
    Written Statement............................................    29

                               Witnesses:

Hon. Kathryn Sullivan, Ph.D., Assistant Secretary of Commerce for 
  Environmental Observation and Prediction, and Deputy 
  Administrator, National Oceanic and Atmospheric Administration
    Oral Statement...............................................    30
    Written Statement............................................    33

Mr. Marcus Watkins, Director, Joint Agency Satellite Division, 
  National Aeronautics and Space Administration
    Oral Statement...............................................    42
    Written Statement............................................    44

Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office
    Oral Statement...............................................    47
    Written Statement............................................    50

Discussion                                                           72

              Appendix: Answers to Post-Hearing Questions

Hon. Kathryn Sullivan, Ph.D., Assistant Secretary of Commerce for 
  Environmental Observation and Prediction, and Deputy 
  Administrator, National Oceanic and Atmospheric Administration.    93

Mr. Marcus Watkins, Director, Joint Agency Satellite Division, 
  National Aeronautics and Space Administration..................    97

Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office.......................   103

             Appendix 2: Additional Material for the Record

Weather-X Blog by Cliff Mass: Submitted by Representative Andy 
  Harris, Chairman, Subcommittee on Energy and Environment.......   110


                     CONTINUING OVERSIGHT OF THE


                  NATION'S WEATHER SATELLITE PROGRAMS:


                      AN UPDATE ON JPSS AND GOES-R

                              ----------                              


                        WEDNESDAY, JUNE 27, 2012

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittees met, pursuant to call, at 2:08 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee on Investigations and Oversight] 
presiding.

[GRAPHIC] [TIFF OMITTED] 74731.001

[GRAPHIC] [TIFF OMITTED] 74731.002

[GRAPHIC] [TIFF OMITTED] 74731.003

[GRAPHIC] [TIFF OMITTED] 74731.004

[GRAPHIC] [TIFF OMITTED] 74731.005

[GRAPHIC] [TIFF OMITTED] 74731.006

[GRAPHIC] [TIFF OMITTED] 74731.007

[GRAPHIC] [TIFF OMITTED] 74731.008

[GRAPHIC] [TIFF OMITTED] 74731.009

[GRAPHIC] [TIFF OMITTED] 74731.010

[GRAPHIC] [TIFF OMITTED] 74731.011

[GRAPHIC] [TIFF OMITTED] 74731.012

[GRAPHIC] [TIFF OMITTED] 74731.013

[GRAPHIC] [TIFF OMITTED] 74731.014

[GRAPHIC] [TIFF OMITTED] 74731.015

[GRAPHIC] [TIFF OMITTED] 74731.016

[GRAPHIC] [TIFF OMITTED] 74731.017

[GRAPHIC] [TIFF OMITTED] 74731.018

[GRAPHIC] [TIFF OMITTED] 74731.019

[GRAPHIC] [TIFF OMITTED] 74731.020

    Chairman Broun. This joint hearing of the Subcommittee on 
Investigations and Oversight on the Committee of Science will 
come to order. This Joint Committee meeting with Subcommittee 
on Energy and Environment.
    Good afternoon. First, I apologize for running late. I was 
on the floor, and please forgive me, my colleagues as well as 
all our witnesses, for running late, and I appreciate you all's 
patience.
    Welcome to today's joint hearing entitled, ``Continuing 
Oversight of the Nation's Weather Satellite Programs: An Update 
on JPSS and GOES-R.''
    In front of you are packets containing the written 
testimony, biographies, and truth in testimony disclosures for 
today's witnesses. Before we get started, since this is a joint 
hearing involving two Subcommittees, I want to explain how we 
will operate procedurally, so that all Members will understand 
how the question-and-answer period will be handled.
    As always, we will alternate between the majority and 
minority and allow all Members the opportunity for questions 
before recognizing a Member for a second round of questions. We 
will recognize those Members that were present here at the 
gavel in order of seniority on the full Committee and those 
coming in after the gavel will be recognized in their order of 
arrival.
    I now recognize myself for five minutes for an opening 
statement.
    This is the ninth hearing this Committee has held on either 
the National Polar-Orbiting Environmental Satellite System, 
NPOESS, Program, or its successor, the JPSS Program, since 
2003. That does not even include hearings related to 
Geostationary Observational Environmental Satellite and weather 
satellites in general. This level of oversight, continued under 
both Republican and Democratic administrations as well as 
Congresses, is indicative of how important weather satellites 
are to our society and to Members of Congress. Without both 
polar and geostationary satellites, our weather forecasting 
ability would be severely compromised.
    Because of the importance of these programs, it is 
frustrating to watch them struggle. The original polar 
satellite program, NPOESS, was supposed to cost taxpayers $6.5 
billion. That was supposed to get the taxpayers six satellites 
operating in three separate orbits, carrying 13 instruments 
which would launch around 2010. Instead, we now have a program 
that will only purchase three satellites and will operate in 
only one orbit and cost twice as much.
    To make matters worse, one of those satellites is a 
research satellite that was never intended to serve 
operationally. NOAA is now dependent upon European partners for 
data from the mid-morning orbit, and it is anyone's guess what 
data the Department of Defense will supply from the early 
morning orbit.
    Even more frustrating is the fact that this program still 
does not have a baseline cost or a schedule. I understand that 
NOAA is working towards developing this, but as they point out, 
the ground segment has already passed its critical design 
review, all of its contracts are signed, JPSS-1's instruments 
are 60 to 95 percent complete, and the spacecraft will 
essentially be a clone of the NPP bus, all indications of a 
mature program.
    To quote the GAO report, not having a baseline, ``makes it 
more difficult for program officials to make informed decisions 
and for program overseers to understand if the program is on 
track to successfully delivering expected functionality on cost 
and schedule.''
    I understand that NOAA has committed to developing a 
program under a lifecycle cost cap of $12.9 billion, but with 
an impending gap in coverage that limits schedule flexibility, 
the only option that NOAA may have to manage program risk is to 
diminish capability. I am also concerned that this $12.9 
billion cap is $1.7 billion lower than the independent cost 
estimate conducted just last year.
    I look forward to monitoring how NOAA decides to cover that 
shortfall and any future challenges. Just since our hearing 
last fall, the program has grown by $1 billion as a result of 
extending the program by four years, the addition of free 
flyers, contract transitions, and a work slowdown because of 
the 2011 budget. Also, the schedule has slipped approximately 
three months. One of the most concerning findings from the GAO 
report on JPSS pertains not to cost increases or schedule gaps 
in NOAA's afternoon orbit, but to the health of the entire 
polar orbiting constellation.
    GAO points out that because of uncertainties in DOD's early 
morning orbit, as well as the European's mid-morning orbit, 
there is a risk of a data gap in each orbit, not just NOAA's. 
After the 2010 decision to split up the program, NOAA was only 
given responsibility for the afternoon orbit, but it is clear 
that the parties need to coordinate to identify synergies and 
to mitigate risks to the entire constellation.
    GOES-R, on the other hand, seems to be making progress 
toward delivering its spacecraft and ground system within cost 
and schedule. This wasn't always the case, as the program was 
significantly de-scoped in 2007 in order to prevent cost growth 
and schedule slips. Still, there are some findings in the GAO 
report that require monitoring, such as the rate at which the 
program is burning through reserves and the fidelity of its 
schedules. Most concerning, however, is the GAO finding that 
there is only a 48 percent chance that the program will meet 
its 2015 launch date, and that there is a 37 percent chance 
that there will be a gap in the availability of two operational 
GOES-series satellites.
    A gap in one program is bad enough. A gap in both programs 
would and could be--could and would be catastrophic.
    I would be remiss if I did not at least mention the Senate 
Appropriations proposal to transfer the weather satellite 
programs from NOAA to NASA. I hope NOAA and NASA can provide 
their thoughts on this proposal, specifically how it would 
impact the current programs as well as the rest of their 
agencies.
    I know these oversight hearings can sometimes be tough, but 
considering NOAA's current position, the House may be one of 
the agency's few friends, maybe the last friend. I hope not.
    The Administration has proposed moving NOAA into the 
Department of Interior, and the Senate has proposed gutting the 
satellite program from NOAA, effectively removing $2 billion of 
NOAA's $5 billion budget. The Committee has a positive working 
relationship with the satellite sector of NOAA, which is 
typically forthcoming with information. Unfortunately, this was 
not the case with questions the Committee posed to NOAA last 
fall after the last hearing. Although we sent questions on 
October 17, we did not receive a response until June 7, eight 
months later. I certainly hope NOAA will be more responsive to 
the questions that we will have after this hearing.
    [The prepared statement of Dr. Broun follows:]

  Prepared Statement of Subcommittee on Investigations and Oversight 
                         Chairman Paul C. Broun

    I want to extend a warm welcome to our witnesses and thank them for 
appearing today.
    This is the ninth hearing this Committee has held on either the 
National Polar-Orbiting Environmental Satellite System (NPOESS) program 
or its successor, the JPSS program, since 2003. That does not even 
include hearings related to the Geostationary Observational 
Environmental Satellite (GOES) and weather satellites in general. This 
level of oversight, continued under both Republican and Democratic 
administrations and Congresses, is indicative of how important weather 
satellites are to our society. Without both polar and geostationary 
satellites, our weather forecasting ability would be severely 
compromised.
    Because of the importance of these programs, it is frustrating to 
watch them struggle. The original polar satellite program, NPOESS, was 
supposed to cost $6.5 billion. That was supposed to get the taxpayers 
six satellites, operating in three separate orbits, carrying 13 
instruments, which would launch around 2010. Instead, we now have a 
program that will only purchase three satellites; that will operate in 
only one orbit; and cost twice as much. To make matters worse, one of 
those satellites is a research satellite that was never intended to 
serve operationally; NOAA is now dependent on European partners for 
data from the midmorning orbit, and it's anyone's guess what data the 
Department of Defense (DOD) will supply from the early morning orbit.
    Even more frustrating is the fact that this program still does not 
have a baseline for cost and schedule. I understand that NOAA is 
working towards developing this, but as they point out, the ground 
segment has already passed its critical design review, all of its 
contracts are signed, JPSS-1's instruments are 60 to 95 percent 
complete, and the spacecraft will essentially be a clone of the NPP 
bus--all indicators of a mature program. To quote the GAO report, not 
having a baseline ``makes it more difficult for program officials to 
make informed decisions and for program overseers to understand if the 
program is on track to successfully deliver expected functionality on 
cost and schedule.''
    I understand that NOAA has committed to developing the program 
under a life cycle cost cap of $12.9 billion, but with an impending gap 
in coverage that limits schedule flexibility, the only option that NOAA 
may have to manage program risk is to diminish capability. I am also 
concerned that this $12.9 billion cap is $1.7 billion lower than the 
independent cost estimate conducted last year. I look forward to 
monitoring how NOAA decides to cover that shortfall and any future 
challenges. Just since our hearing last fall, the program has grown by 
$1 billion as a result of extending the program by four years, the 
addition of free flyers, contract transitions, and work slowdown 
because of the 2011 budget. Also, the schedule has slipped 
approximately three months.
    One of the most concerning findings from the GAO report on JPSS 
pertains not to cost increases or schedule gaps in NOAA's afternoon 
orbit, but to the health of the entire polar-orbiting constellation. 
GAO points out that because of uncertainties in DOD's early morning 
orbit, as well as the Europeans' midmorning orbit, there is a risk of a 
data gap in each orbit, not just NOAA's. After the 2010 decision to 
split up the program, NOAA was only given responsibility for the 
afternoon orbit, but it is clear that the parties need to coordinate to 
identify synergies and mitigate risks to the entire constellation.
    GOES-R, on the other hand, seems to be making progress toward 
delivering its spacecraft and ground system within cost and schedule. 
This wasn't always the case, as the program was significantly descoped 
in 2007 in order to prevent cost growth and schedule slips. Still, 
there are some findings in the GAO report that require monitoring, such 
as the rate at which the program is burning through reserves, and the 
fidelity of its schedules. Most concerning, however, is the GAO finding 
that there is only a 48 percent chance that the program will meet its 
2015 launch date, and that there is a 37 percent chance that there will 
be a gap in the availability of two operational GOES-series satellites.
    A gap in one program is bad enough. A gap in both programs would be 
catastrophic.
    I would be remiss if I did not at least mention the Senate 
Appropriations proposal to transfer the weather satellite programs from 
NOAA to NASA. I hope NOAA and NASA can provide thier thoughts on this 
proposal, specifically how it would impact the current programs as well 
as the rest of their agencies.
    I know these oversight hearings can sometimes be tough, but 
considering NOAA's current position, the House may be one of the 
agency's few friends. The Administration has proposed moving NOAA into 
the Department of Interior, and the Senate has proposed gutting the 
satellite program from NOAA, effectively removing $2 billion of NOAA's 
$5 billion budget. The Committee has a positive working relationship 
with the satellite sector of NOAA, which is typically forthcoming with 
information. Unfortunately, this was not the case with questions the 
Committee posed to NOAA last fall after the last hearing. Although we 
sent questions on October 17, we did not receive a resonse until June 
7--eight months later. I certainly hope NOAA will be more responsive to 
the questions we will have after this hearing.

    Chairman Broun. Now, I recognize Mr. Tonko, my good friend 
from New York, for his opening statement.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
witnesses.
    This Committee has been holding hearings to ask critical 
questions of the satellite programs since at least 2003. We 
have seen cycles of disaster as when we witnessed the JPSS, in 
its prior imposed guise, double in cost before the entire 
enterprise was redesigned and rebaselined.
    We have witnessed Herculean efforts to restructure 
acquisition plans to get problems under control. Frankly, 
despite these efforts, we have not had much to cheer about with 
JPSS, and even GOES-R has been a source of concern.
    However, my sense is that both of these programs are on 
sustainable paths. That said, it appears that an auditor at GAO 
could build a pretty good 20-year career out of simply tracking 
the weather satellite program, and that is a sorry state of 
affairs.
    The group that sits before us today is not responsible for 
the mess. Rather, we are counting on them to get us out of a 
mess they inherited. It is our job to probe the answers they 
offer, assess whether the programs appear robust, and offer 
whatever advice and support we can to get these satellites 
launched and operating. Believe me, if we could have altered 
these acquisitions, we could have--would have, but these 
satellites and the instruments that are to fly on them are too 
important to our Nation to abandon this program.
    I want to come away from this hearing with an understanding 
that there is solid planning going on to fill any data gaps, I 
want a firmer grasp of where remaining risks lie in each of 
these programs, and I want to know there are reasonable 
strategies for dealing with those risks.
    In short, I want to leave with confidence that the 
management teams running the JPSS and GOES-R satellite programs 
are, indeed, up to the challenges.
    In closing, Mr. Chair, I want to express my hope that we 
not leap to conclusions, either good or bad, about either of 
these programs. We should be cautious about these programs, but 
it appears that nothing staff learned in preparing for this 
hearing and nothing in GAO's testimony leads us to condemn 
either program or to conclude that things are off the tracks 
again.
    I thank our witnesses for being here today and sharing 
information and providing the sort of in-depth discussion that 
is absolutely required, and I look forward to their testimony 
today.
    Thank you, Mr. Chair, and I yield.
    [The prepared statement of Mr. Tonko follows:]

Prepared Statement of Investigations and Oversight Subcommittee Ranking 
                          Member Paul D. Tonko

    This Committee has been holding hearings to ask critical questions 
of these satellite programs since at least 2003. We have seen cycles of 
disaster, as when we witnessed the JPSS--in its prior NPOESS guise--
double in cost before the entire enterprise was redesigned and 
rebaselined. We have witnessed Herculean efforts to restructure 
acquisition plans to get problems under control. Frankly, despite those 
efforts, we have not had much to cheer about with JPSS, and even GOES-R 
has been a source of concern. However, my sense is that both of these 
programs are on sustainable paths. That said, it appears that an 
auditor at GAO could build a pretty good 20-year career out of simply 
tracking the weather satellite program, and that is a sorry state of 
affairs.
    The group that sits before us today is not responsible for the 
mess. Rather, we are counting on them to get us out of a mess they 
inherited. It is our job to probe the answers they offer, assess 
whether the programs appear robust, and offer whatever advice and 
support we can to get these satellites launched and operating. Believe 
me, if we could have halted these acquisitions, we would have. But 
these satellites, and the instruments that are to fly on them, are too 
important to our Nation to abandon this program.
    I want to come away from this hearing with an understanding that 
there is solid planning going on to fill any data gaps. I want a firmer 
grasp of where remaining risks lie in each of these programs, and I 
want to know there are reasonable strategies for dealing with those 
risks. In short, I want to leave with confidence that the manangement 
teams runnning the JPSS and GOES-R satellite programs are up to the 
challenge.
    In closing, Mr. Chairman, I want to express my hope that we not 
leap to conclusions--either good or bad--about either of these 
programs. We should be cautious about these programs, but it appears 
that nothing staff learned in preparing for this hearing and nothing in 
GAO's testimony leads us to condemn either program or to conclude that 
things are off the tracks again. I thank the witnesses for being here 
today, and I look forward to your testimony.

    Chairman Broun. Thank you, Mr. Tonko. Appreciate that, and 
I agree with you. I am not sure if we are off track. I sure 
hope not, and I think we--it is one of the most bipartisan 
Committees in this very bipartisan overall Full Committee, and 
I appreciate that. I just want to get some information. I think 
both sides want to do just the same.
    Just as we are going to do with the question-and-answer 
period, we will recognize not only the Chairs and Ranking 
Members of both Subcommittees before we go to the rest of the 
Members of the Committees, as I mentioned earlier we will--I 
will now recognize Dr. Andy Harris from Maryland for his 
statement.
    Mr. Harris. Thank you, Mr. Chairman. Good afternoon. I 
would like to thank the witnesses for joining us to discuss 
NOAA's environmental satellite issues.
    This is the second hearing we have had on NOAA's satellites 
in this Congress alone, and I understand this Committee has had 
many more over the past several Congresses. With this much 
oversight, we typically hope to see some improvement, and in 
some areas we have. However, with every step forward it seems 
we are taking two steps back.
    The launch of the NPP satellite last October was certainly 
an achievement, and NOAA and NASA are to be applauded for the 
successful launch. But the satellite was five years late, and 
some of the instruments are not working as well as they should 
be. The contracts for the Joint Polar Satellite System, JPSS, 
have finally been transferred from its predecessor program, and 
NASA and NOAA are making progress. But the threat of a data gap 
remains, the cost of the program has increased by $1 billion, 
squeezing funds available for important ground- and air-based 
weather systems.
    The Geostationary Operational Environmental Satellite or 
GOES Program moves along, but NOAA is burning through its 
funding reserves quicker than anticipated, and risk has still 
not been reduced. Today we will be told that there is a 
possibility of a GOES gap right around the same time as the 
possibility of a JPSS gap. As we learned in an Energy and 
Environment Subcommittee hearing several months ago, the 
majority of the data used in weather prediction models by the 
National Weather Service comes from satellite data. The 
prospects of a JPSS coverage gap is troubling enough in itself, 
but the possibility of a concurrent gap in GOES coverage 
represents a truly scary scenario that significantly threatens 
U.S. lives and property.
    Given these difficulties, perhaps it is time for us to seek 
a new paradigm for procuring data for weather forecasting. The 
current procurement process may simply not be working, and time 
is running out, but to date there appears little interest in 
pursuing alternative solutions. While there are no easy answers 
to this dilemma and the choices we make will require a 
significant effort and evaluation, we must accept that the 
status quo cannot continue.
    Again, I thank the witnesses for being here with us today. 
I look forward to an informative discussion, and I yield back 
the balance of my time.
    [The prepared statement of Mr. Harris follows:]

 Prepared Statement of Subcommittee on Energy and Environment Chairman 
                              Andy Harris

    Good afternoon. I would like to thank the witnesses for joining us 
to discuss NOAA's environmental satellite issues.
    This is the second hearing we have had on NOAA satellites in this 
Congress alone, and I understand this Committee has had many more over 
the past several Congresses. With this much oversight, we would 
typically hope to see some improvement. And in some areas, we have. 
However, with every step forward, it seems we are taking two steps 
back.
    The launch of the NPP satellite last October was certainly an 
achievement, and NOAA and NASA are to be applauded for the successful 
launch. But the satellite was five years late, and some of the 
instruments are not working as well as they should be.
    The contracts for the Joint Polar Satellite System (JPSS) have 
finally been transferred from its predecessor program, and NASA and 
NOAA are making progress. But the threat of a data gap remains, and the 
cost of the program has increased by $1 billion, squeezing funds 
available for important ground- and air-based weather systems.
    The Geostationary Operational Environmental Satellite, or GOES, 
program, is moving along, but NOAA is burning through its funding 
reserves quicker than anticipated, and risk has still not been reduced.
    Today we will be told that there is a possibility of a GOES gap, 
right around the same time as the possibility of a JPSS gap. As we 
learned in an Energy and Environment Subcommittee hearing several 
months ago, the majority of the data used in weather prediction models 
by the Nationl Weather Service comes from satellite data. The prospect 
of a JPSS coverage gap is troubling enough in itself, but the 
possibility of a concurrent gap in GOES coverage presents a truly scary 
scenario that significantly threatens U.S. lives and property.
    Given these difficulties, perhaps it is time for us to seek a new 
paradigm when procuring data for weather forecasting. The current 
procurement process is simply not working, and time is running out, but 
to date there appears to be little interest in pursuing alternative 
solutions. While there are no easy answers to this dilemma, and the 
choices we make will require significant effort and evaluation, we must 
accept that the status quo cannot continue.
    Again, I thank the witnesses for being here with us today, and I 
look forward to an informative discussion.

    Chairman Broun. Thank you, Dr. Harris.
    The Chair now recognizes my good friend from North 
Carolina, Mr. Miller, for five minutes.
    Mr. Miller. Thank you, Chairman Broun. I want to thank both 
Chairs of the Subcommittees for holding the hearing today on 
two satellite programs; JPSS and GOES-R, that have 
unfortunately been a central part of this committee's oversight 
responsibility for years. I say unfortunately because the 
attention of oversight does not gravitate to programs that are 
running smoothly. It gravitates to programs that are a problem, 
and these programs had been a problem. Although they need to 
work. Though seldom the headline grabber, it is hard to 
overstate the importance of satellite programs for the lives of 
Americans. The daily life.
    Satellite-based weather, inclement forecasts tell us 
whether to carry an umbrella on any given day, where to fly 
planes, what crops to plant, whether to run our power plant, 
how to plan military missions, when to take cover from deadly 
storms. When they work, when we get timely and accurate 
information, we are safer and more prosperous, but when 
satellite programs falter, we find that lives, property, 
infrastructure, and economic health are at risk.
    During my tenure as Chairman of the Investigation Oversight 
Subcommittee of the Science Committee, we kept a very close eye 
on these two programs, particularly the Joint Polar Satellite 
System, or JPSS, recognizing that poor management and wasteful 
spending put more than federal jobs and money at stake. Until 
recently we have been profoundly disappointed, and even now the 
data gap that threatens our forecasting capabilities is just 
inexcusable.
    But today I am cautiously optimistic that we are finally on 
the right path, that the Administration has put into--the work 
that the Administration has put into reorganizing and rescoping 
JPSS has put that program on a new path to mission success. 
Time will tell, but until then, until time does tell us, we 
will focus on the real and viable options we will need to use 
in order to get us through a difficult period.
    At the same time, we have to keep a watchful eye on NOAA's 
progress on the Geostationary Operational Environmental 
Satellite System, R Series, or GOES-R, from their stations 
above the Equator that GOES satellite tracks weather across the 
western hemisphere. While the GOES program has not suffered 
from the same mismanagement and mistakes that have plagued the 
Polar Satellite Program, we have seen that preliminary cost 
estimates for these satellites have doubled, and as a result, 
NOAA has found it necessary to cut in half the number of 
satellites that are--that they have ordered.
    Even so, we remain cautious to ensure that this program 
remains within budget and on schedule. And I don't claim to 
know how much a weather satellite should cost. I don't, in my 
normal life, buy satellites.
    As with JPSS, we need to take a hard look at the necessary 
funding levels and reserves required to keep overall costs down 
and the project online.
    I look forward to hearing our witnesses from GAO again, 
NOAA, and NASA, to discuss how these relevant agencies can keep 
these programs on track and in the process fulfill the promise 
of keeping Americans safer and our economy more efficient and 
productive.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Miller follows:]

 Prepared Statement of Subcommittee on Energy and Environment Ranking 
                           Member Brad Miller

    I want to thank both Chairs of the Subcommittees for holding 
today's hearing on two satellite programs--JPSS and GOES-R--that have 
been central to our Committee's oversight responsibilities for years.
    Though seldom the headline grabber, it is hard to overstate the 
effect that satellite programs have on the life of Americans. For 
instance, satellite-based weather and climate forecasts tell us not 
only how to dress for the day, but also where to fly airplanes, what 
crops to plant, when to run our power plants, how to plan military 
missions, and when to take cover from deadly storms. When they are more 
timely and accurate, we are more prosperous and safer. When satellite 
programs falter, we put lives, property, infrastructure, and our 
economic health at risk.
    But today, I am cautiously optimistic that the work the 
Administration put into reorganizing and rescoping JPSS has put the 
project on a new path to mission success. Time will tell. But until 
then, we should focus on the real and viable options we will need to 
use in order to get us through a difficult period.
    At the same time, we have to keep a watchful eye on NOAA's progress 
on the Geostationary Operational Environmental Satellite System-R 
series, or GOES-R. From their stations above the Equator, the GOES 
system tracks weather across the western hemisphere.
    While the GOES program has not suffered from the same mismanagement 
and mistakes that have plagued the polar satellite program, we have 
seen the preliminary cost estimate for these satellites double and, as 
a result, NOAA found it necessary to cut in half the number of 
satellites to be ordered. Even so, we remain cautious to ensure this 
program remains within budget and on schedule.
    As with JPSS, we need to take a hard look at the necessary funding 
levels and reserves required to keep overall costs down and the project 
on time.
    I look forward to hearing our witnesses from GAO, NOAA, and NASA 
discuss how the relevant agencies can keep these programs on track and, 
in the process, fulfill their promise of keeping Americans safer and 
our economy more efficient and productive.

    Chairman Broun. Thank you very much, Mr. Miller. I thought 
you went out and bought satellites every week or so.
    Mr. Miller. That was just bread and milk.
    Chairman Broun. Oh. Okay. Well, I just was confused, I 
guess.
    At this time, I would like to introduce our first panel of 
witnesses. The first witness is the Honorable Kathryn Sullivan, 
Dr. Sullivan, Ph.D., the Assistant Secretary of Commerce for 
Environmental Observation and Prediction and the Deputy 
Administrator at NOAA. Our second witness is Mr. Marcus 
Watkins, the Director of the Joint Agency Satellite Division at 
NASA, and our final witness is Mr. David A. Powner, the 
Director of Information Technology Management Issues for the 
GAO. I thank you all for being here.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which Members of the Committee have 
five minutes each to ask questions. Your written testimony will 
be included in the record of the hearing. Because of the 
importance and the complexity of the issues before us today, I 
will allow you to go over five minutes if you need to. If you 
can make it within five minutes, please do so, and I am very 
proud of my colleagues for keeping theirs under five minutes. I 
was slightly over, I think.
    It is the practice of the Subcommittee on Investigations 
and Oversight to receive testimony under oath, and we will use 
that practice today as well.
    Do any of you have an objection to taking an oath?
    Okay. Let the record reflect that the witnesses were all 
willing to take the oath by saying no and shaking their head 
from side to side, indicating such also.
    You also may be represented by counsel. Do any of you have 
counsel here today?
    All three, again, indicated shaking their head and saying 
no, so let the record reflect such, that the witnesses do not 
have counsel.
    Now, if you would please stand and raise your right hand. 
Do you solemnly swear or affirm to tell the whole truth, and 
nothing but the truth, so help you God?
    You may be seated. Let the record reflect that all the 
witnesses have taken the oath.
    I now recognize our first witness, Dr. Kathryn Sullivan of 
the National Oceanic and Atmospheric Administration. Dr. 
Sullivan, you have five minutes. Thank you, ma'am.

           STATEMENT OF DR. KATHRYN SULLIVAN, PH.D.,

              ASSISTANT SECRETARY OF COMMERCE FOR

           ENVIRONMENTAL OBSERVATION AND PREDICTION,

                   AND DEPUTY ADMINISTRATOR,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Sullivan. Thank you. Good afternoon, Chairmen Broun and 
Harris, Ranking Members Tonko, Miller, and Members of the 
Subcommittees. You have my written statement. It gives you much 
more detail. I would like this afternoon just to highlight a 
few key points.
    First, significant progress has been made in both the GOES-
R and JPSS Programs. GOES-R remains on schedule for launch in 
the first quarter of fiscal year 2016. The Joint NOAA-NASA team 
has a history of working extremely well together and 
effectively. This has led to the completion of key program 
milestones and substantial demonstrable progress towards that 
launch date.
    For JPSS substantial progress has also been made since I 
last testified before this Committee, most notably as cited the 
successful launch of the Suomi NPP Satellite. While there is 
more work that needs to be done to reach comparable maturity to 
the GOES-R Program, JPSS has come a long way.
    Second, NOAA's priority is to maintain and improve the 
accuracy and reliability of the life- and property-saving 
weather forecasts, watches, and warnings that our Nation 
depends upon. To do this we must maintain schedule and costs so 
that each satellite is ready for launch as close to the end of 
its predecessor's life as possible, ideally before. Meeting 
this priority requires established and stable requirements, 
strong, effective management with rigorous and dependent 
checks, and stable funding. We have achieved the stable 
requirements. We are committed to strong, effective management. 
We have independent checks in place, and we are working hand in 
hand with this Committee to assure the funding remains as 
stable as possible in this challenging fiscal environment.
    Nobody cares about the products these satellites provide 
and the services they support more than NOAA. They are 
essential to our own mission performance and important to a 
very long list of government, private sector, and academic 
customers. As every successful business owner knows, it is 
essential to understand your customer in order to assure that 
you are meeting their needs. NOAA is the critical link between 
operational satellite observations and our users, and 
continuity of service is the most important thing we can do.
    I would like to just illustrate briefly, if I may, some of 
the progress that the systems we are bringing online will 
support. One of our GOES satellites is currently watching 
Tropical Depression Debby, monitoring her every move and 
helping our forecasters predict where she will go next so they, 
in turn, can help emergency managers prepare.
    I have brought some images along, and staff will provide 
them to you in hard copy, from relevant current events that 
demonstrates some of the advances that Suomi NPP is already 
providing to our forecasters and their emergency management 
partners. These are specifically some images from the Visible/
Infrared Radiometer Suite or VIIRS. We have one that shows 
fires that are currently active in Colorado, Wyoming, and 
demonstrate the capability of VIIRS to not only see 
temperatures associated with wildfires far more intense than 
those that we could do before but also locate them more 
accurately on the ground to aid responders.
    We also have some images of Hurricane Debby or Tropical 
Storm Debby that show the sort of detail on storm intensity 
that, again, the higher resolution and greater bands in the 
VIIRS imager will provide.
    Turning now to some highlights of the progress in each of 
the programs, the GOES-R Series Program is on schedule and on 
budget for launching its first satellite in the first quarter 
of fiscal '16. Over the last year, some of the notable 
milestones achieved include successful completion of the 
mission and preliminary design review, passage of the key 
decision point approval to move toward mission critical design, 
successful completion of the instrument, spacecraft, and core 
ground segment critical design reviews. Good progress on 
construction of the ground antenna and our command and data 
acquisition sites, the selection of the launch service 
provider, which was completed this past April.
    GOES-R remains within a solid lifecycle cost, and we are 
committed to maintaining that $10.8 billion figure. This 
includes development, launch, operations, and sustainment for 
four GOES Series spacecraft R, S, T, and U, plus the 
instruments and running them through 2036, as well as 
development of the ground system and procurement of the launch.
    Last year, when I appeared before you to discuss the JPSS 
Program, we were still in the formulation phase. The transition 
from NPOESS, I believe, is now behind us. We have the proper 
program management in place, and the teams are working well 
together.
    Again, major milestones have been achieved this past year, 
the launch and successful operations of Suomi NPP have been 
noted. We are already using Suomi NPP data operationally today 
at seven months post-launch, three times faster than has been 
achieved before. We have, we believe, a sound program office 
estimate for lifecycle costs and independent reviews, 
independent review teams in place, and we are proceeding 
towards the first key decision point in July of next year. This 
is the point in which, according to formal NASA practice, we 
will have a full detailed baseline for you.
    I am confident the cost and schedule presented in the 
President's FY 2013 budget are sound, and they will support a 
successful program. This $12.9 billion figure retains the same 
instrument suite as was outlined in the February 2010, 
restructure decision. It includes over $4.3 billion in sunk 
costs that covered NOAA's contributions to NPP and the 
development of the instruments and ground systems, and the 
remaining will fund instruments to support two JPSS spacecraft, 
free flyer accommodations for instruments that cannot fit on 
that footprint, launch vehicles, the development of an updated 
ground system, and sustainment and operations through 2028.
    As GAO points out and you all have noted, despite this 
progress we still face a gap in coverage. We agree with the 
GAO's recommendation to formally document our long-hailed and 
well-defined practices of using all available assets that can 
help mitigate such a gap and being ready to ingest the data 
from these sources. Our prime strategy remains to leverage any 
remaining capabilities of existing on-orbit assets from NOAA 
and to use our partnerships with international nations.
    Finally, I would like to thank your Committees for their 
continued interest and support of NOAA satellite programs. With 
NASA as our acquisition agent and partner in these programs, we 
are on track and headed for success. We have strong and 
seasoned managers at the helm. They are supported by a 
dedicated and talented team of technical professionals. We have 
reaffirmed our international partnerships for the JPSS Program, 
and all parties are moving forward to meet their commitments. 
We take our life and property protecting mission very, very 
seriously. Our commitment to you to ensure that the progress we 
have seen in this past year continues, that these programs stay 
on schedule and on budget to deliver for our Nation, is rooted 
in our commitment to NOAA's mission for the country.
    Thank you for the opportunity to testify to you here today. 
I look forward to our discussion, and I appreciate the extra 
time, Mr. Chairman.
    [The prepared statement of Dr. Sullivan follows:]
    [GRAPHIC] [TIFF OMITTED] 74731.021
    
    [GRAPHIC] [TIFF OMITTED] 74731.022
    
    [GRAPHIC] [TIFF OMITTED] 74731.023
    
    [GRAPHIC] [TIFF OMITTED] 74731.024
    
    [GRAPHIC] [TIFF OMITTED] 74731.025
    
    [GRAPHIC] [TIFF OMITTED] 74731.026
    
    [GRAPHIC] [TIFF OMITTED] 74731.027
    
    [GRAPHIC] [TIFF OMITTED] 74731.028
    
    [GRAPHIC] [TIFF OMITTED] 74731.029
    
    Chairman Broun. Thank you, Dr. Sullivan. Appreciate your 
testimony.
    Now I recognize our next witness, Mr. Marcus Watkins of 
NASA. Mr. Watkins, you are recognized for five minutes.

           STATEMENT OF MR. MARCUS WATKINS, DIRECTOR,

                JOINT AGENCY SATELLITE DIVISION,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Watkins. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Subcommittee, thank you for the opportunity to 
appear here today to share information regarding the NASA role 
in and commitment to NOAA's Joint Polar Satellite System (JPSS) 
and NOAA's Geostationary Operational Environmental Satellite R 
Series (GOES-R ) Program.
    JPSS----
    Chairman Broun. Could you pull your microphone slightly 
closer?
    Mr. Watkins. Is that better, sir? Okay. JPSS and GOES-R are 
critical to the Nation's weather forecasting system, climate 
monitoring, and research activities. NASA and NOAA have been 
partners for over 40 years in developing the Nation's polar and 
geosynchronous weather satellites. With the President's 
direction in 2010, NASA and NOAA returned to the successful 
partnership for JPSS. Since that time the NASA Program 
Management Office was established, and it is nearly fully 
staffed.
    In addition, NOAA and NASA have established joint program 
management counsels to oversee the NOAA portfolio of satellites 
and have integrated their decision-making processes to 
efficiently and effectively manage this cooperative activity. 
Over the last two years, the NASA and NOAA teams have 
strengthened their working relationship.
    I am pleased to report that the NASA and NOAA team 
completed development of National Polar-Orbiting Partership 
(NPP), and it was successfully launched on October 28, 2011. 
Activation and initial checkout are now complete, and the JPSS 
Program has assumed operational control of the satellite, now 
renamed the Suomi National Polar-Orbiting Partnership. While 
Suomi NPP was not intended to be used as an operational asset, 
NOAA will be using Suomi NPP data in its operational weather 
forecasting models.
    As a measure of how well the Suomi NPP mission is 
progressing, NOAA meteorologists are already using data 
products from the ATMS instrument in their weather forecasts, 
and we are getting excellent performance from the VIIRS 
instrument as well.
    NASA, as NOAA's acquisition agent, now controls all of the 
JPSS instrument, spacecraft, and ground system contracts. The 
first JPSS satellite, JPSS-1, will essentially be a copy of 
Suomi NPP with upgrades to meet the JPSS level one 
requirements. Assuming full funding of the President's FY 2013 
budget request for NOAA, it is anticipated that JPSS-1 will be 
ready to launch before the end of the second quarter of FY 
2017, close to five years after the October launch of Suomi 
NPP.
    In addition, the GOES-R Series Program of four 
geosynchronous satellites, continues to make progress towards 
launching GOES-R, the first satellite of the series in the 
first quarter of FY 2016. Again, assuming full funding the 
President's budget, the program completed its preliminary 
design review phase, and the GOES-R Series flight project 
conducted a successful critical design review for the 
spacecraft and awarded launch vehicle task orders to United 
Launch Services for the GOES-R and GOES-S missions, which will 
be launched on Atlas V-41 series launch vehicles.
    Additionally, all flight instruments' critical design 
reviews are complete, and all of the flight instruments are in 
flight hardware, fabrication, integration, or tests.
    Once again, thank you for the opportunity to testify today. 
I appreciate the support of this Committee and the Congress for 
these critical programs and would be pleased to answer any 
questions.
    [The prepared statement of Mr. Watkins follows:]
    [GRAPHIC] [TIFF OMITTED] 74731.030
    
    [GRAPHIC] [TIFF OMITTED] 74731.031
    
    [GRAPHIC] [TIFF OMITTED] 74731.032
    
    Chairman Broun. Thank you, Mr. Watkins. Appreciate your 
testimony.
    And now our final witness is Mr. David Powner of the 
Government Accountability Office. Mr. Powner, you have five 
minutes. Thank you, sir.

          STATEMENT OF MR. DAVID A. POWNER, DIRECTOR,

           INFORMATION TECHNOLOGY MANAGEMENT ISSUES,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairman Broun, Chairman Harris, Ranking 
Members Tonko, Ranking Member Miller, and Members of the 
Subcommittees, we appreciate the opportunity to testify this 
afternoon on the JPSS and GOES-R Programs.
    Starting with JPSS, this nearly $13 billion acquisition is 
proceeding along with a planned launch date of the first 
satellite by March 2017. This afternoon I would like to provide 
an overview of progress to date, the program's current cost 
estimate, key risks to the program, and potential gaps in data 
satellite continuity.
    Starting with progress. NPP, the planned demonstration 
satellite now used for operations, was successfully launched in 
October 2011, and the instruments were commissioned by March 
2012. NOAA has made good progress transferring management and 
contracting responsibilities from the old NPOESS Program. Also, 
solid development has occurred on all five sensors associated 
with the first satellite. Specifically, all five are at least 
60 percent complete, and two are 85 percent complete.
    Last September when I testified before you, the overall 
program cost was $11.9 billion. After recent reconciliations of 
various cost estimates, the program determined that the new 
cost estimate should be about $14.6 billion, an increase of 
$2.7 billion from last year's hearing. In working with OMB, 
NOAA officials told us that they expect the program to be 
funded at roughly $900 million a year, but that OMB placed a 
lifecycle cap on the program at $12.9 billion.
    Therefore, the program faced a funding gap of $1.7 billion, 
and our report being released today highlights options NOAA was 
considering to address this nearly $2 billion funding gap, 
which included removing certain sensors.
    To its credit, NOAA has recently made some tough decisions 
to address this funding gap. At a high level, their plan is to 
take a more effective approach to the operations and 
maintenance phase and to fly three sensors on other satellites. 
This approach to a ride-share arrangement with the three 
sensors clearly helps reduce program costs but, like most 
options, has tradeoffs. In this case, this approach raises 
schedule risks since the launch dates are no longer in the 
hands of the JPSS Program.
    Other risks to the program reside with the launch vehicle. 
No decision has yet been made on which launch vehicle will be 
used.
    Finally, turning to potential gaps in satellite data, we 
continue to be concerned about the afternoon orbit and 
highlight a potential 17-month gap if NPP lasts five years and 
the JPSS hits its March 2017 launch date. In our opinion, this 
is the best-case scenario. If NPP lasts less than five years 
and if JPSS launch date slip, this gap could be greater.
    We also highlight continuity concerns for the first time 
regarding DOD's early morning orbit and the European midmorning 
orbit. For example, the follow-on European satellite may no 
longer be supported with NOAA-funded sensors due to constrained 
budgets. Given these concerns, we have recommended that NOAA 
establish mitigation plans for pending satellite gaps for all 
three orbits. NOAA plans to issue a report by August to address 
this recommendation.
    In summary, NOAA and NASA continue to make progress on 
JPSS. However, three areas deserve Congressional oversight. 
First, how NOAA and NASA operate within the $12.9 cap, how the 
ride-share arrangement proceeds with certain sensors since 
significant cost savings is associated with this approach, and 
third, how the satellite constellation, all three orbits, will 
be effectively managed to ensure critical weather and climate 
data.
    Next, I would like to turn to the GOES-R Program. This 
nearly $11 billion acquisition is proceeding toward an October 
15 launch date for its first satellite. What I would like to do 
is highlight progress to date on GOES, the program's cost 
profile, including use of management reserves, and observations 
on the program's schedule and launch dates.
    Before I get into these specifics, I would like to clarify 
the scope of the GOES-R Program. Originally it was a four-
satellite program in 2006 that was to cost about $11 billion. 
So the program eliminated a key sensor and dropped two 
satellites, among other things, to keep the cost around $7.7 
billion.
    So, for about five years, we had a fairly stable program, 
two satellites at $7.7 billion. As part of the fiscal year 2012 
budget request, NOAA added the two satellites back and 
increased the lifecycle cost to $10.9 billion, so we are back 
to where we were in 2006; four satellites costing about $11 
billion.
    Starting with progress, the program has completed 
preliminary design reviews for the flight and ground segments 
and for the program overall. The program is to have its 
critical design review in August, meaning that all designs are 
complete and that the program overall is ready for full-scale 
development.
    Regarding costs, the program continues to operate within 
the $7.7 billion lifecycle cost for the first two satellites. 
This is the case despite the fact that in our report, we 
highlight cost increases associated with sensors, the 
spacecraft, and the ground components over the last two years 
that tally about $750 million. Most notably the Advanced 
Baseline Imager (ABI) grew $148 million, and the ground segment 
grew nearly $300 million.
    Despite this contractor cost growth, the program has been 
able to operate within the $7.7 billion overall estimate by 
using management reserves. Initially the bucket tallied $1.7 
billion, and it is now down to about $1.2 billion.
    A few points here on management reserves. Thirty percent 
have recently been used and significant development remains. 
Two-thirds of the development for the spacecraft and the ground 
segments remains. In addition, during the course of our review, 
we found that the transparency associated with the use of and 
the remaining balance of the reserves was not where it needed 
to be, and we made associated recommendations to address that.
    Turning to schedule and launch dates, first, some of the 
key design reviews were late. We also performed a detailed 
review of the spacecraft, ground segment, and two sensors. Our 
review exposed some questions with the current schedules and 
raised some questions ultimately about the October 2015, launch 
date.
    In addition, NOAA risk logs identify schedule risks 
associated with the key sensor and also with the flight and 
ground segments, and finally, NOAA's own assessment claims that 
there is only a 48 percent confidence level that the program 
will meet its October 2015, launch date. We made 
recommendations to address these concerns, Mr. Chairman.
    In summary, to date the GOES-R Program has been able to 
operate within the cost estimate of $7.7 billion and the 
current schedule by effectively using cost and schedule 
reserves. More transparency is needed on the use of the 
reserves. In addition, questions about the reliability of the 
program schedule and their own assessment show that the October 
2015, launch date could slip.
    This concludes my statement. I would be pleased to respond 
to questions.
    [The prepared statement of Mr. Powner follows:]
    [GRAPHIC] [TIFF OMITTED] 74731.033
    
    [GRAPHIC] [TIFF OMITTED] 74731.034
    
    [GRAPHIC] [TIFF OMITTED] 74731.035
    
    [GRAPHIC] [TIFF OMITTED] 74731.036
    
    [GRAPHIC] [TIFF OMITTED] 74731.037
    
    [GRAPHIC] [TIFF OMITTED] 74731.038
    
    [GRAPHIC] [TIFF OMITTED] 74731.039
    
    [GRAPHIC] [TIFF OMITTED] 74731.040
    
    [GRAPHIC] [TIFF OMITTED] 74731.041
    
    [GRAPHIC] [TIFF OMITTED] 74731.042
    
    [GRAPHIC] [TIFF OMITTED] 74731.043
    
    [GRAPHIC] [TIFF OMITTED] 74731.044
    
    [GRAPHIC] [TIFF OMITTED] 74731.045
    
    [GRAPHIC] [TIFF OMITTED] 74731.046
    
    [GRAPHIC] [TIFF OMITTED] 74731.047
    
    [GRAPHIC] [TIFF OMITTED] 74731.048
    
    [GRAPHIC] [TIFF OMITTED] 74731.049
    
    [GRAPHIC] [TIFF OMITTED] 74731.050
    
    [GRAPHIC] [TIFF OMITTED] 74731.051
    
    [GRAPHIC] [TIFF OMITTED] 74731.052
    
    [GRAPHIC] [TIFF OMITTED] 74731.053
    
    [GRAPHIC] [TIFF OMITTED] 74731.054
    
    Chairman Broun. Thank you, Mr. Powner, and I thank the 
whole panel for your testimony.
    Reminding Members the Committee rules limit questioning to 
five minutes each. Ordinarily, the Chair would open the first 
round of questions, but I am going to defer to the Full 
Committee Chair, Mr. Hall, to begin the first round of 
questions.
    Mr. Hall, you are recognized for five minutes.
    Chairman Hall. Mr. Chairman, thank you.
    I, you know, the Senate proposed--I think the Senate 
Commerce, Justice, and Science Appropriations Subcommittee 
proposed--in some report language to transfer funding for 
weather satellite acquisition from NOAA to NASA, and I am as 
bad as Mr. Miller about not knowing what a satellite might 
cost. I remember one time when I left the Texas Judge's seat in 
my little hometown to go to Austin to take on a job as a state 
senator; our kids had to change schools, and my wife and I both 
assured them we would help them with their schoolwork, and the 
first week they studied how much was the national debt. And it 
got my little kid in trouble because he gave them the answer I 
gave him; a hell of a lot, he said. That wasn't what the 
teacher was looking for, but maybe Mr. Miller and I might know 
that a satellite costs a hell of a lot.
    But the Senate proposed to transfer the weather satellite 
from NOAA to NASA. I guess my question is, is this going to 
result in cost savings? I ask Dr. Sullivan that. She might have 
one answer and maybe Mr. Watkins might have another, and I 
might have another, but--and you don't have to answer that now 
but in a minute--will this result in any efficiencies, or will 
it streamline management? Will it increase the likelihood of 
the program's success by meeting mission requirements on 
schedule and within budget?
    Would you like to answer that, Dr. Sullivan? Do you have an 
opinion on that, probably?
    Dr. Sullivan. The Administration is taking the Senate's 
proposal very seriously, Mr. Hall, and is analyzing potential 
impacts in all of those areas and the points that the Senate 
highlighted in their proposal. We don't have an official 
position from the Administration yet, so I can't give you 
details of those considerations.
    We share the Senate's concerns about growth in the program 
costs and the consequences that this has had on other elements 
of NOAA's budget, so we certainly appreciate where they are 
coming from on this and are working very diligently to look at 
the possible impacts, assess the places where they assert there 
will be savings, and look at the things we hold as priorities: 
mission assurance, management stability and effectiveness, and 
maximum continuity of data.
    Chairman Hall. That is the sound of a good soldier. What is 
your real opinion? If you want to give it. If you don't, I 
understand.
    Dr. Sullivan. Well, I have highlighted the areas where I 
would focus my analysis on, and I'm a scientist, so, you know, 
I would go with the analysis of what we think impacts in those 
areas might be, and we were sharing those with the 
appropriators and with the Administration.
    Chairman Hall. Mr. Watkins.
    Mr. Watkins. Yes, sir. We have been working with the 
Administration, again, to assess the Senate's proposal. At this 
point in time that continues to go on. Again, we, too, would 
want to make sure that we are able to maintain overall 
schedules and the concerns of getting these critical space 
assets in space as soon as possible.
    Chairman Hall. Okay. I guess--your answer is not no, and it 
is not yes. I guess can we expect the Administration to take 
any position on this, on a change like this, and if so, when 
would it happen?
    Mr. Watkins. Sir, I don't know the answer to that question. 
It's my understanding that the Administration has taken this 
under advisement, and their process is ongoing.
    Chairman Hall. Once again I give an illustration in my own 
life. I went before a big company to borrow a lot of money one 
time, and they said, Mr. Hall, we will listen to your ignorant 
proposal with an open mind, and that is kind of what I am 
getting here. You must have an opinion, both of you, on that. 
You work for NOAA, you work for NASA, you are high up there.
    The proposed transfer is not a trivial thing, and I just 
got about 40 more seconds. I guess my question is why hasn't 
the Administration, why have they been silent, and can we 
expect them to take a position? The proposal is not trivial. 
The satellite program represents a significant portion of 
NOAA's overall budget. Let's also not forget that NASA also has 
its hands full already with its own acquisition problems as the 
GAO listed on its high-risk series. In the decision also the 
program of such a domestic fashion should be fully reviewed by 
the authorizing committees. While I share the Senate's 
frustrations in these programs, I hope that this decision is 
not made in the backroom as always, and I am committed to 
working with the Administration some, as much as I possibly 
can, and the Senate and my House colleagues to ensure that our 
Nation maintains its critical weather forecasting capabilities. 
It is very important.
    My time is up, and I yield back.
    Chairman Broun. Thank you, Chairman Hall. I now recognize 
my Ranking Member, Mr. Tonko from New York, for five minutes.
    Mr. Tonko. Thank you, Mr. Chair. The odds are extremely 
high that there will be a gap in data between the end of NPP's 
productive life and the time that JPSS-1 can be launched and 
data brought online. In fact, the NPP may not even last the 
projected five years for which we are looking. As a result, we 
need a clear plan for how to cope with the data gap, so to 
speak, a gap that may start sooner rather than later.
    Dr. Sullivan, what is NOAA's plan for filling that gap, and 
who have you assigned to manage the effort to identify other 
data sources and ensure that the data we can get will work 
seamlessly in our weather prediction models?
    Dr. Sullivan. Thank you, Mr. Tonko, for that question. Our 
mission to deliver accurate and life and property protecting 
forecasts is one that we take extremely seriously, and so I can 
assure you that no one is more concerned about and working 
harder on this gap than my colleagues and I at NOAA do.
    You have asked the single most common question we receive 
from Congress, from our weather enterprise stakeholders, that I 
ask myself, and if I had a silver-bullet answer to magically 
fix it, I assure you I would give it to you. There is no easy 
direct substitute on orbit, just go get it, for the data of the 
precision and the accuracy and the compatibility that JPSS is 
designed to provide.
    What we are doing and we are working very hard at this, we 
have been renewing and reconfirming written and firm 
commitments with international partners for mutual aid. These 
are arrangements akin to utility companies mutual aid 
arrangements in the time of a storm. We have used such 
arrangements in the past in instances where we had temporary 
outages of a GOES satellite back in March of 2010 I believe it 
was and years prior when other nations have had more extended 
gaps in their geostationary coverage.
    So we are working those, we are ensuring they are in place. 
We have good understanding of the technical characteristics of 
many of those data streams. Many of them we use as 
complementary data to improve the forecasts off of our core 
data streams today.
    We have begun the efforts with our modeling centers and our 
weather service to look at what technical changes would be 
needed if we did need to and wish to take data streams in that 
we don't commonly. I would cite one there. The Defense 
Department's satellite has a microwave imager sounder, the data 
from which we don't commonly use. It has noise characteristics 
and bias that are not suitable for our normal weather models. 
We have worked hard over the last year to whittle those down 
and understand how we could accommodate those. That has 
shortened the time frame, the runway it would take to 
incorporate those data. We will continue such efforts.
    The GAO rightfully, we believe, points out that these plans 
should be better documented. That is a fair comment. We will 
deliver on that. They rightly point out that it is not enough 
just to list out a roster of things one might do. We really 
need to take the positive steps as your question is 
suggesting----
    Mr. Tonko. Uh-huh.
    Dr. Sullivan [continuing]. To be sure that we are 
technically ready as well, and we are beginning on that work 
and will document it appropriately.
    Mr. Tonko. And who is leading that, who is taking that 
effort up?
    Dr. Sullivan. Our international partnership work and the 
overall effort for gap assessment is being led by our Associate 
Administrator for NESDIS, Mary Kicza, and we have as I alluded 
to, colleagues within both our algorithm shops and the National 
Weather Service engaged as well. And I assure you I keep a 
close eye on it.
    Mr. Tonko. Uh-huh, and Mr. Powner, do you have any comment 
or views on this matter?
    Mr. Powner. Well, clearly we would like to see those plans 
documented. A couple thoughts here, though. One is the one 
thing that NOAA and NASA do control is keeping JPSS launch date 
where it currently is. You need to keep that on track, because 
if that slips more, the gap becomes even greater. So that is 
one thing you need to really focus on keenly.
    The other thing is with NPP over the next year as you look 
at calibration and validation activities, there might be a 
greater indication on how long NPP will last. So the key is to 
try to get NPP to last as long as you can, and that picture 
should become clearer when you go through calibration and 
validation, but you really need to keep that first JPSS-1 on 
track.
    Mr. Tonko. Uh-huh.
    Dr. Sullivan. Mr. Tonko, I would just add, we completely 
agree with that. I thought your question was directed more 
towards alternative data streams. I endorse my colleague's 
comments.
    Mr. Tonko. Okay. Thank you, and Mr. Powner, you have seen a 
lot of program teams come and go, and do you have a view on the 
current JPSS Program Manager and team that you would be willing 
to share?
    Mr. Powner. Yeah. I think there is strong program 
management there. We have seen many program managers over the 
years testifying before this Committee, and clearly when you 
look at where the program is now, it is in a much better 
position than where it has been in the past, and when you look 
at the aggressive mitigation of risk, one of the key things to 
highlight, the $1.7 million--billion funding gap to get down to 
the cap on the program is being aggressively worked by the 
program. Those plans make sense right now. Obviously we need to 
see more details, but I think the aggressive management of risk 
has been where we want it.
    Mr. Tonko. Thank you. Thank you very much.
    Chairman Broun. Thank you, Mr. Tonko. Now I recognize my 
colleague from Maryland, Dr. Harris.
    Mr. Harris. Thank you very much, Mr. Chairman.
    Chairman Broun. You have five minutes.
    Mr. Harris. As I indicated in my opening statement, you 
know, the status quo with respect to weather satellite programs 
may simply not be a sustainable option, and a question we 
should be asking and exploring is to what alternative options 
we have.
    To that end, I would like to enter into the record a piece 
by University of Washington Atmospheric Scientist Cliff Mass, 
entitled, ``Weather-X.''
    Chairman Broun. And without objection.
    [The information may be found in Appendix 2.]
    Mr. Harris. Thank you very much. Dr. Mass makes the 
argument that NOAA should consider pursuing a model similar to 
that which NASA pursued with SpaceX. Mass argues that the 
weather data necessary for forecasts could be provided by a 
private company that could build, launch, and maintain the 
satellites.
    Dr. Sullivan, what is NOAA's philosophy towards the type of 
alternative private model that Dr. Mass has suggested?
    Dr. Sullivan. Well, I would say I have not read the blog 
post in detail, Dr. Harris, so I can't comment on the 
particulars that are sited there. In general, my posture would 
be that innovative ideas deserve careful exploration.
    My administrator just testified before another committee at 
this chamber last week about the desirability and the 
importance of the Weather Service, as indeed all of NOAA, being 
resilient and adaptable for the changes that are coming ahead 
and the changes in our customer base and the demands for our 
products and services, the changes of our challenges of our 
fiscal times. So those are important attributes for any 
organization to have.
    Mr. Harris. Sure, and I understand there are private sector 
models of this type currently being proposed to NOAA. At a 
hearing earlier this year, we heard from a company proposing to 
launch a hyperspectral sounder that would provide dramatically 
improved severe storm forecasting capability, and with that in 
mind, could you be specific about how NOAA is evaluating these 
proposals? I mean, who is in charge of these evaluations, and 
how specifically they would go forward if they could?
    Dr. Sullivan. Well, I think there are two different 
characteristics there. The proposal that I understand was 
brought to us with respect to that hyperspectral instrument was 
that we procure the instrument or the data from it as a 
substitute for current data. Our environmental satellite 
service organization in concert with the National Weather 
Service evaluate those proposals to determine the suitability 
of data and the judged reliability, feasibility of the proposal 
in terms of technical maturity and cost reliability and the 
estimates. All satellites and all instruments are very easy in 
Power Point. Most are much harder in actuality, so we look for 
some evidence that we have got a viable path.
    To my mind, the SpaceX type model is an altogether 
different thing. If the proposal is that a third party actually 
set their standards, set their targets, and decide to go do 
something and open a new market, which is, in a nutshell, my 
understanding of the SpaceX proposal, and as I think we have 
seen NASA do, one applies a very different posture to a 
proposal like that. We have not had such a one come before us 
at NOAA. I think we would take a similar kind of posture.
    Weather forecasting to protect the lives and livelihoods of 
Americans is not the same commodity as tickets to ride. So the 
details might well turn out differently.
    Mr. Harris. Okay, but there is some method. I mean, is 
someone, for instance, is there someone actively pursuing the--
or investigating this Weather-X proposal? I mean, is there any 
discussion at NOAA at all about the potential for 
commercialization as NASA has done with SpaceX?
    Dr. Sullivan. I am not aware that----
    Mr. Harris. Not as an individual effort. You are waiting to 
be reactive, not proactive about it.
    Dr. Sullivan. I wouldn't characterize it that way, Dr. 
Harris. We interrogate and interact with the private sector 
abundantly. As you know, there is a very vibrant private sector 
weather enterprise that has privatized the dissemination 
portion of the enterprise. It used to be, once upon a time, 
government as well. We engage with potential providers of 
launch services and instruments quite frequently. We put an RFQ 
out in 2008, prior to letting instrument contracts for JPSS to 
take extra care and be sure there were not candidate providers 
we had overlooked.
    So I think we are more active than your question suggests. 
I just don't know if anyone yet has seen the Weather-X blog. It 
had not been brought to my attention until your question.
    Mr. Harris. Well, it will be in the record so they can see 
if they--I would hope that someone would be, you know, watching 
something, again, by university scientists being published. 
Even if it is in a blog.
    At the same prior hearing on NOAA weather data, a panel of 
outside experts all recommended that NOAA undertake an 
observing system simulation experiment, an OSSE, which I hope 
you are familiar with the concept, which would quantitatively 
evaluate different capabilities and options to determine the 
best mix of systems that NOAA should pursue.
    Now, absent one--an OSSE--NOAA is basing its weather data 
planning mostly on subjective opinions.
    So, Dr. Sullivan, when will NOAA finally undertake an OSSE 
on these systems?
    Dr. Sullivan. We agree with the characterization of OSSEs 
as a highly rigorous and very good way to assess total 
ensembles of observing systems. We do use them, and we have 
used them periodically in the past. We have neither the high-
performance computing capacity nor the manpower, frankly, to 
devote to a standing large effort to run multiple OSSEs. That--
we are sort of rate limited in that step.
    We did, as you know, I believe, conduct an OSSE or more 
appropriately, an observing simulation experiment, to evaluate 
the potential loss of data of weather forecasting in the 
midlatitudes like the Snowmageddon example that I think we 
spoke about at this hearing last year.
    So we do them selectively. I am sure they will come into 
play as we look at some of the gap mitigation strategies that 
may lie before us. We would love to do, have the capacity to 
do, more of them. They are an important and rigorous tool.
    Mr. Harris. Well, thank you very much.
    Chairman Broun. The Chairman's time has expired.
    Mr. Miller, you are recognized for five minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    I mentioned before we had many hearings in this Committee 
on--or these Subcommittees on these programs but particularly 
the JPSS Program and its predecessor program, the late 
unlamented NPOESS Program. The hearings seem to have a familiar 
pattern to them. We have someone from NOAA or NASA or other 
government agencies saying these programs have been a big 
problem, they have been messed up, but we are fixing it now, 
things are on track now, and then we had Mr. Powner say, no, 
no, they are still messing up, and he has always been right.
    But I have heard, Mr. Powner, in your testimony today, I 
heard terms I have never heard come from your mouth. Good 
progress, solid development. Do you think that particularly the 
JPSS is on track, and what are the remaining issues and risks? 
What else can go wrong? In the past it has been true that 
everything that could go wrong has, but do you think, what do 
you think could still go wrong, and how much under control is 
that?
    Mr. Powner. Well, clearly it is a much better picture than 
we testified on in the past, Ranking Member Miller. I think the 
challenge, the couple of challenges that we see with JPSS is 
operating within the $12.9 billion gap cap because the program 
when you reconcile cost estimates, it was somewhere around 
$14.6. So operating within that cap there is still that $1.7 
billion delta. There is a plan to address that, but I think 
that will be a challenge going forward.
    In addition, associated with addressing that $1.7 billion 
gap, this arrangement where you have a ride-share arrangement 
with certain sensors, and you are flying them outside of the 
JPSS Program, there is some big cost savings associated with 
that, and I think it is important to keep an eye on that, 
because that is where you are likely going to get the savings 
is the way I see the current plan.
    Mr. Miller. Okay. Dr. Sullivan, that may have sounded 
mildly critical, but if you had been here before, you know that 
was lavish praise.
    How confident are you in that $12.9 billion figure for 
lifecycle cost analysis? What are the risks of that not being 
the right number or something going wrong?
    Dr. Sullivan. Mr. Miller, I don't buy satellites every day, 
either, but I have been around space systems a good bit. I 
think that sounded right on the mark. These are complex 
programs. They always need carefully watched. I never rested 
easy until the wheels stopped on the runway after a mission, 
and I don't intend to rest easy until we have got these systems 
in orbit now as well.
    So I think Mr. Powner has characterized things quite fairly 
and quite properly. We will stay right on the bubble.
    Having said that, I am confident that we have a solid 
figure in the $12.9 billion number. The elements of work that 
were done to move from the $14.6 down to the $12.9 I think were 
solidly done. They capitalized on experience with NPP, as has 
been mentioned earlier in questioning. They took some 
conservative estimates that were based on unknowns and unproven 
capabilities and performance, modified those downward. They 
dove into remaining elements that were heritage legacy from the 
ill-fated and never lamented NPOESS and scrubbed those back. 
With respect to the ground system, as Mr. Powner has noted, 
moved the ground system to a different set of architectures 
that are less proprietary, more commercial, off the shelf, 
modern network protocols.
    So a lot of substantive technical things were done to stack 
up that new estimate, and I have a strong confidence in it and 
also very high and continued scrutiny.
    Mr. Miller. Okay. Mr. Watkins, your testimony was also very 
optimistic about the GOES-R Program, and it does sound like it 
is on track, but it is the instruments that still have a ways 
to go and developing them and integrating them, and we know 
that that has frequently been a stage at which things can go 
wrong.
    What confidence do you have that the instruments included 
like the lightning mapper, I have never bought a lightning 
mapper either, will succeed and it will be on time and on 
budget?
    Mr. Watkins. I think one of the things that is critical is 
that NOAA and NASA got started very early on with the 
instrument developments, and the instruments, when you look 
across satellite programs are usually the place where you begin 
to run into the problems. And so I think the fact that they 
started the instrument developments very early, the fact that 
they had developed instrument prototypes, the instruments are 
on the path to being completed on time. You mentioned the 
lightning mapper. That is going to be the first time that we 
actually will fly that instrument, and it, too, is progressing 
along very well.
    So we are confident in the approach that was taken with the 
instrument developments and the ways in which they are 
currently being managed.
    Mr. Miller. Okay. My time has expired, Mr. Chairman.
    Mr. Harris. [Presiding] Thank you very much. I now 
recognize the gentleman from California, Mr. Rohrabacher, for 
five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Mr. Watkins and maybe Dr. Sullivan may have some insight on 
this as well, how much money has just evaporated from the 
NPOESS Program? What do we have? We have some things that are 
left from this debacle that are worth something, but how much 
can you say is an actual total loss of value for the American 
taxpayer?
    Mr. Watkins. Do you want me to--so where we are today, tied 
to the NPOESS Program, approximately $4.3 billion has been 
spent to date. Now, out of those resources we had the 
development of instruments that are ultimately going to be 
flying on----
    Mr. Rohrabacher. Okay.
    Mr. Watkins [continuing]. JPSS-1----
    Mr. Rohrabacher. Right.
    Mr. Watkins [continuing]. Instruments that were, that are 
flying on Suomi NPP, the fact that we had developed a ground 
system that is actually being utilized today in order to 
operate the Suomi NPP mission, and instrument developments 
across the board, again, for JPSS-1.
    So a lot of the costs that have been spent to date are 
actually being utilized as part of the overall JPSS-1 Program.
    Mr. Rohrabacher. Right. That is the basis of my question. 
How much have we lost? How much, I mean, it is not--there is no 
loss at all? It is not really a debacle? It's an ideal program 
or----
    Mr. Watkins. No. Sir----
    Mr. Rohrabacher. We have been told just the opposite, that 
we are representing at least hundreds of millions of dollars, 
if not billions of dollars of actual evaporation of wealth.
    Mr. Watkins. Sir, we would have to take that under 
advisement and get back to you.
    Mr. Rohrabacher. That would be nice. Thank you very much.
    Mr. Watkins. Okay. We will take that action.
    Mr. Rohrabacher. Because I do recognize as you were 
pointing out and people should understand while evaluating this 
program, it is--of the $4 billion it is not all gone.
    Mr. Watkins. No.
    Mr. Rohrabacher. There is a large chunk of it which we will 
use eventually, however, that doesn't necessarily make up for 
the cost overrun concept here where it started at such a low 
level and ended up escalating, I mean, over double was--as it 
stands now when it could go up more.
    Just a little bit about this Senate recommendation that 
Chairman Hall brought up in terms of procurement of weather 
satellites from going from NOAA to NASA rather than being this 
joint system that created so much havoc with NPOESS. The 
suggestion is is that we take this procurement decision-making 
process out of the hands of NOAA and NASA and give it to NASA, 
and that is what you didn't want to comment on until we got the 
Administration come down with our policy, and it is perfectly 
understandable. That is what you have to do.
    But let me just ask about common sense here. NOAA is the 
agency that utilizes this technology. NOAA is the one that is 
going to utilize it, and doesn't it make sense that NOAA and 
other agencies such as the Geological Survey, to assume a 
greater role in actually procuring the equipment they need 
rather than NASA, who is basically aimed at exploration and--of 
space? Wouldn't it make sense to actually go the other 
direction, that we are giving more rights to NOAA to make those 
decisions rather than sharing it with NASA, which is not going 
to be necessarily utilizing the equipment after it has already 
been procured?
    Dr. Sullivan. I think the logic you enunciate, Mr. 
Rohrabacher, was some of the logic that drove the decision to 
unwind the NPOESS Program to get end-mission responsibility 
aligned as tightly as possible with fiscal resources and 
program management. My colleagues at NASA appreciate the 
importance of this mission to the country as well as we do. I 
am confident that Congress in its wisdom does direct this 
change.
    Mr. Rohrabacher. I would think, I would hope that people 
start looking at that because if we are going to transfer it 
to, we are going to transfer authority and put some--and focus 
authority, it should be on the people who are going to use the 
system that they are ordering, and also it would again go to 
the heart of the matter of let's have NASA focus on what it 
does, which is space exploration, and let's have NOAA and 
Geological Survey and others focus on their mission, which is 
to look at the Earth. NASA's mission is not that.
    One last thing, Mr. Chairman, with your permission, the--
another issue as brought up Chairman Harris during his 
questions dealt with the privatization and looking at SpaceX as 
a model, which will save the taxpayer enormous amounts of money 
in the long run because it has proven successful or at least 
now if it keeps proving itself successful. We--there are 
equivalents in NOAA to this, and there are equivalent things in 
most major agencies. If we are going to bring down this $1.5 
trillion worth of deficit spending that we have every year, we 
have got to find ways of making those type of savings as 
represented by SpaceX.
    And let me just note that NOAA has a fleet of ships in 
order to transport their various programs and their various 
missions around and determining what the weather is like. I 
would see there would be an equivalency of SpaceX transporting 
things into space and does a better job than just leaving it to 
a government agency. I would say that there is also an 
equivalency in NOAA that instead of maintaining a fleet, that 
could be contracted out, and we would probably save money. I 
know we looked at that several years ago, and we didn't have 
the political will to move forward on that, but maybe the fact 
that we are about ready to go under because of deficit spending 
will encourage us to look at those type of alternatives.
    Thank you very much, Mr. Chairman.
    Mr. Harris. Thank you very much, and now I recognize the 
gentlelady from California, Ms. Lofgren, for five minutes.
    Ms. Lofgren. Thank you, Mr. Chairman, and I was very 
interested in listening to Mr. Rohrabacher's questioning about 
responsibility and NOAA versus NASA, and Mr. Rohrabacher and I 
don't always agree on things, but I think his line of 
questioning is one that I have as well, which is if we are 
going to look at NOAA to be our lead in the science of all of 
this, you know, maybe we ought to think about vesting more 
completely the responsibility with you instead of having you 
ask your brother agency. And I am sure that is going to lead to 
what we really want. I guess that would be my statement rather 
than a question. I won't put you on the spot.
    You know, when you think about the history of what is going 
on, I mean, it was really in 2005, I think, that the cost 
overruns were so outrageous that they really, they triggered 
the Nunn-McCurdy Program breach review, and at the time, we had 
a Republican President and a Republican committee, and even the 
leadership of this Committee couldn't get the attention of the 
President at that time. And when you think about that to where 
we are today, we have made tremendous progress. It doesn't mean 
we have to be satisfied with where we are. I don't think anyone 
is. I am not hearing that from any of the witnesses. But we 
have made tremendous progress, and we have got to make more.
    Here is the question. It is easy for us in the Congress to 
look at the Administration whether--of either party and 
complain, but sometimes we need to turn the attention on 
ourselves, and so this is the question for you if you can 
answer. We have not had stable funding because of our inability 
to appropriate in the normal course of business.
    How would a continuing resolution, if that is what we end 
up with again this year, impact your programs? Dr. Sullivan and 
Mr. Watkins, if you could answer that, it would be very 
helpful.
    Dr. Sullivan. Thank you, Ms. Lofgren. I appreciate your 
remarks and your question. With respect to continuing 
resolution, one big item that would concern me there is FY 2013 
is when GOES-R has a scheduled budget bump in order to 
accommodate purchase of a launch vehicle. So if we are unable 
to proceed with the launch vehicle scheduling and acquisition, 
that could compromise schedule.
    With respect to JPSS, if we were held on a continuing 
resolution at the appropriated level of the FY '12, plan, that 
is in line with what we would, what we have come forward for in 
the President's budget, so I would forecast with the same 
caveats of forecast. Less impact on JPSS but an impact of 
concern on GOES-R.
    Mr. Watkins. The only thing that I would add to that is 
that with respect to the GOES-R Program, currently we are at a 
budget in this fiscal year at 615. We plan to be increased to 
803, and so if we were actually under a continuing resolution 
that went beyond the first quarter of the fiscal year, it would 
begin to have severe negative impacts to the cost and the 
schedule of specifically the GOES-R mission.
    And so the continuing resolution hurts us a lot more in the 
GOES-R Program.
    Ms. Lofgren. So if we do that, what I am hearing is it 
could end up costing us more, assuming we continue with both 
program efforts down the line. And if we didn't, I mean, this 
is a lot of money. I mean, where I come from this sounds like a 
lot of money, and yet when you think about what is going on in 
terms of very severe weather impacts, what was there, $60 
billion in fiscal year 2011 on dramatic events, and I guess my 
questions maybe you can't answer.
    If you can get a 10 or 15 percent increase in damage for 
lack of warning, I mean, have you done an analysis of what kind 
of warning leads to what kind of decrease in damage on the 
ground if it is a hurricane or if it is a tornado or if it is 
whatever kind of event?
    Dr. Sullivan. Ms. Lofgren, we have not seen any rigorously 
evaluated economic studies that make that trace all the way 
through improvement of a warning, improvement of a forecast, 
improvement of a warning, to improvement of the human response 
to that warning. So I can't give you a well-vetted figure.
    Ms. Lofgren. Well, maybe that is something we ought to ask 
the post-docs of the world to take a look at, but we do know, 
just anecdotally, that adequate warning in tornado alley made a 
huge difference in terms of loss of life, and it would be good 
to have some analysis, because if we are talking, you know, a 
10 or 15 percent reduction in loss on a $60 billion figure, 
that is way more than we are talking about to create the 
warning, and with that I think my time has expired, and I move 
to yield back.
    Mr. Harris. Thank you very much, and now I recognize the 
gentleman from Mississippi, Mr. Palazzo, for five minutes.
    Mr. Palazzo. Thank you, Mr. Chairman. As the Chairman of 
the Space and Aeronautics Subcommittee, I would like to echo 
Chairman Hall's concerns regarding the Senate's proposal to 
transfer $1.6 billion from NOAA to NASA for the procurement of 
weather satellites. From my perspective, Mr. Hall raised the 
most important point when he said NASA has its hands full. We 
are hearing about cancelled Mars and astronomy missions, 
delayed testing for SLS, continuing issues with the James Webb 
Space Telescope, and the list goes on and on.
    If this Senate proposal goes through, NASA will now own 
these troubled weather satellites also. Just based on their 
history, I would say there is a good chance we will have 
additional cost overruns, and now NASA, not NOAA, will have to 
cover in the NASA budget.
    So with that, Mr. Watkins, the devil is always--the detail 
is always--the devil is always in the details. Can you--it 
feels like a late afternoon. Has NASA done anything to analyze 
this switch from NOAA to NASA?
    Mr. Watkins. Again, sir, we have been working with the 
Administration as they are taking this Senate proposal under 
advisement, and that is continuing as we speak today. They were 
looking across critical assets of satellite programs, they are 
looking at the overall budget, they are looking at the overall 
schedule, as well as the critical need to get these data 
products into weather prediction.
    And so it is a very complicated thing to evaluate, and they 
are in the process of evaluating the Senate proposal.
    Mr. Palazzo. So then, basically, you will take your 
analysis, and you will provide that to the Administration, and 
is that where his statement of administration policy comes 
from, that Chairman Hall requested and no one was able to tell 
him when they may receive that?
    Mr. Watkins. I don't know the answer to that question, sir. 
We will have to get back to you.
    Mr. Palazzo. Okay. Say when there are cost overruns just 
based on the history of this program, what missions is NASA 
going to have to reduce their funding for or eliminate such as 
earth sciences or----
    Mr. Watkins. At the current time, again, the NASA role in 
the weather satellite programs on behalf of NOAA is one of an 
acquisition agent, and we implement these critical products on 
behalf of NOAA. All of the funding that currently is tied in 
with this program is NOAA funding. It comes to NASA, and we 
build their satellites and launch them, and then, you know, 
commission them and bring back the critical data.
    And so at this point there are zero NASA dollars involved.
    Mr. Palazzo. So the $1.6 billion transfer, if it ends up 
costing $2 billion, NOAA will basically pick up that extra $400 
billion, I mean, $400 million and transfer that to NASA?
    Mr. Watkins. Sir, I was only speaking of the existing 
relationship. I wasn't speaking of the Senate proposal. Again, 
I think all of that would have to be evaluated.
    Mr. Palazzo. Okay. Thank you. Dr. Sullivan, the 
recommendation to sever the NPOESS Program came from an 
independent review team chaired by Mr. Tom Young. It is our 
understanding that Mr. Young is engaged in another review for 
NOAA, and I have got several questions related to that.
    What has NOAA charged him to look at? Will this review 
address the funding shortfall identified by GAO? Will this 
review provide recommendations or just findings? Will this 
review be available to Congress, and also, will the findings be 
reviewed, vetted, and edited by the Administration prior to 
sharing with Congress?
    Dr. Sullivan. Thank you, Mr. Palazzo, for your question. 
Tom Young does, indeed, chair our Independent Review Team that 
is charged with looking across the entire NOAA satellite 
portfolio. It is a late afternoon. His co-chair is a retired 
Air Force General, Tom Moorman. The rest of the panel, we can 
provide you the names, are very experienced space 
professionals.
    Their charge is to look at any and all aspects of budget 
management, technical formulation that contribute to or detract 
to mission assurance in our satellite programs, assess them and 
provide both findings and recommendations. It is--they brief me 
directly, they write their report, their reports are not 
redacted by someone before reaching the NOAA Administrator and, 
nor as I understand at least, are they in any way redacted 
before they come to this Committee or other committees of this 
chamber and your colleagues on the other side of the Hill, 
whether verbally or written.
    Mr. Palazzo. Thank you. I yield back, Mr. Chairman.
    Mr. Harris. Thank you very much. I recognize the gentleman 
from California, Mr. McNerney, for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    Dr. Sullivan, I can imagine what things were like when the 
budget reduction became known and uncertainty in what your 
funding was going to be like. It must have been a sense of 
panic and scramble.
    Let me ask you, has that passed now, or are things still in 
a scramble mode to try and figure out what is going to happen 
or how you are going to deal with this shortfall?
    Dr. Sullivan. May I just clarify, Mr. McNerney, that you 
are referring to the continuing resolution in FY 2011, or did 
you have some other budget issue in mind?
    Mr. McNerney. Yes, the continuing resolution.
    Dr. Sullivan. That--FY 2011 was a very difficult year with 
a final appropriation not in hand until some time, I forget the 
exact calendar date of the enactment and then we had spend plan 
negotiations with various chambers to get alignment on the use 
of those funds. So it was very late in the year. It was less 
than 30 days before the end of the fiscal year before we had 
full agreement from all parties on the Hill about how to spend 
our resources.
    That is, as you suggested, extremely difficult to manage. 
While it is difficult to manage a federal agency itself, it is 
extremely difficult to maintain continuity and performance for 
contractors, for our university colleagues who were subject to 
that uncertainly
    For JPSS in particular, the level of the CR, the level of 
spending that we were held at because of the CR, even when 
supplemented by the better part of $90 million by reprograming 
that the Administration requested and the Congress approved, 
still was far below. It was hundreds of millions below the 
target level for the ramp-up of JPSS.
    So with that backdrop I would say a few things. I would say 
that rather like the ripple on a carpet or a bedspread, when 
you give it a good shake, some of that is still moving through 
the system in terms of delays that were incurred that don't 
just go instantly away when a funding stream is restored, and 
we are still seeing some of that consequence. It definitely did 
strain the team. It strained in terms of professionalism and 
acuminated desire to keep moving. Of course, it creates 
tensions within a team. I think largely the team is past that. 
The trust and battle rhythm of the NOAA and NASA team around 
JPSS has improved notably in the 12, 13 months since I have 
been aboard.
    The final thing I would say, though, is, you know, the 
general climate of uncertainty certainly is a tension that we 
all have to bear, and we certainly hear about it also from our 
contractors as perhaps you do as well. They have got a battle 
rhythm and a certain headcount running on the factory floors 
that are building these spacecraft, and to be assured of being 
able to continue them, will they have to think about moving 
those workforces around? One of the things that I think we all 
worry about is, across all federal programs, if the funding is 
that uncertain, can the Federal Government have confidence of 
getting the A-Team on these programs if there are steadier 
income streams from commercial context in the case of this 
business sector? Might we be concerned about having lesser 
quality of talent applied to our work and doing the public's 
good?
    Mr. McNerney. We are all concerned about the data gap, if 
it is going to be bad enough for the public to notice, if it is 
going to be bad enough to cause additional damage due to poor 
forecasting and so on. I am a mathematician for my background, 
and I did a lot of time modeling. Do you think the modeling, 
the mathematical modeling is going to pick up a lot of that 
slack, given the data from other sources and the older 
satellites?
    Dr. Sullivan. So I am a geologist, Mr. McNerney. I don't 
think I will attempt the same estimate that you will.
    Mr. McNerney. Okay.
    Dr. Sullivan. But that is an important and open question 
that we will be looking at. I think the prospect is certainly 
there. The other forms of data, proxy data, if you will, might 
be able to substitute and lessen the degradation of forecasts. 
The afternoon orbit specifically as almost a piece of real 
estate is an important point here in terms of sampling the 
atmosphere at the peak of midday heating when it is, you know, 
the dynamics are fully active. So there is a question of, can 
you get some other sounding data from a different instrument, 
and then there is the added question of, and does it give you 
that same time coverage in terms of the daily cycle of the 
Earth, and then how old are the data by the time you get them 
into your models? All of those would be factors in how much we 
could mitigate the forecast degradation.
    Mr. McNerney. Well, there is certainly--with the current 
capabilities, and we would see a significant dropoff if that, 
if the dropoff happened today, if the data gap happened today. 
We would see a significant dropoff. Is that correct?
    Dr. Sullivan. We have run a number of studies to assess 
that about a year and a half ago, I think, they were completed. 
Statistically they scatter, of course, a little bit as you 
would expect. The most notable outcome in that was a simulation 
without polar-orbiting data, without afternoon polar data for 
the big snowstorm called Snowmageddon. And in that case, we had 
substantial forecasters in both the track of the storm and the 
total precipitation fell in the storm. The three or four other 
cases that we studied showed a varying sensitivity. Generally 
some degradation, not all as severe as the Snowmageddon case.
    Mr. McNerney. Thank you. My time has expired.
    Mr. Harris. Thank you very much, and we have a few more--I 
have a few more questions, so we will do a second round. I 
recognize myself for the five minutes, first five minutes.
    Dr. Sullivan, one of the most troubling findings from GAO's 
JPSS report is that the entire polar-orbiting constellation, 
not just the afternoon orbit, appears to be at risk. DOD still 
has DMSP satellites available for the early morning orbit, but 
they may not operate as expected because they have been in 
storage for so long.
    DOD also hasn't figured out what is it going to do after 
the DMSP program. The Europeans are experiencing their own 
financial problems, and NOAA has indicated that it will not 
supply sensors to the Next Generation Program for the mid-
morning orbit.
    Since its inception the NPOESS Program has always intended 
on operating satellites in three separate orbits that would 
ensure that no observations were more than six hours old.
    Now, understanding that your shop, NOAA, is only 
responsible for the afternoon orbit, do you have any idea what 
the Administration as a whole is doing to protect the entire 
constellation?
    Dr. Sullivan. Dr. Harris, I know the Administration has 
convened a National Earth Observations Task Force to look 
across all of the civilian agencies and try to get a better 
handle and greater coordination across those assets and their 
capabilities. I am not aware of an active interagency group. It 
may just be my ignorance that is looking more at the White 
House levels, specifically at the DMSP or DWSS and NOAA 
constellations.
    I would say that our own program managers are maintaining 
very active liaison with both Air Force weather and space and 
missiles command out in Los Angeles. So we are interacting 
closely with them. We have a very long history of collaboration 
and mutual support with the Defense Department. I believe both 
parties recognize and appreciate the other's equities quite 
well and try to maintain high levels of mutual awareness and 
information so that we can do--we can do what we can do with 
the resources and latitude available to us to complement and 
support each other.
    Mr. Harris. But does the--do you know, does the 
Administration plan to mitigate the risks or how are they going 
to mitigate the risk of a gap in those other orbits, not NOAA's 
afternoon orbit but the other orbits, which inform you and the 
National Weather Service for your forecasts and models?
    Dr. Sullivan. I know of no specific plan for those 
mitigations at this time, Dr. Harris.
    Mr. Harris. Now, the GAO's testimony indicates that NOAA 
will have to shed some capability in order to live within the 
Administration's cost cap. Options listed by the GAO include 
the loss of climate sensors, which would cause a break in the 
over-30-year record of some measurements, the loss of ground-
based reception stations that would degrade the timeliness of 
data from 30 minutes to 80 minutes, or the loss of data 
processing systems at two Navy locations that would impact the 
data used by warfighters.
    What, if anything, does NOAA plan to remove? I mean, what--
have you prioritized what will be removed?
    Dr. Sullivan. I can assure you we have very clear 
prioritization of the factors that make the greatest 
contributions to our primary weather forecasting mission, and 
the decisions we have made to date and any that are driven by 
circumstances we face in the future will be made in accordance 
with those priorities.
    Having said that, as I believe Mr. Powner pointed out in 
his testimony, the options that we have worked on, the 
reanalysis that we have worked on, since their first look gives 
us confidence that the sensors can, in fact, be accommodated 
inside the $12.9 billion lifecycle cost cap. We did decide, and 
we think it is a prudent action, to drop the number of ground 
stations from the very high number that was contained in the 
old NPOESS so-called distributed receptor network and rely more 
critically on one at each pole. So two stations that see lots 
of every polar pass, Svalbard and McMurdo, with a backup at 
high latitudes in our own Fairbanks site. Those give us very 
good coverage for all polar-orbiting birds.
    Yes, the initial target of a 30-minute time delay or 
latency for JPSS data has been relaxed to 80. Our current 
performance, however, is 120, so that is still a substantial 
improvement over current performance and should make a notable 
improvement to forecasting.
    With respect to the data centrals, I think that reflects, 
in part, an evolution of ground system structure from very 
tailored, very unique, to each service and each provider 
towards more common, unified ground stations. We certainly can 
take on the development of tailored interfaces for NOAA 
satellite data for the Air Force or the Navy if they wish, but 
at this point, with our budget constraints, we have let those 
partners know that would have to be on a reimbursable basis. 
The Air Force is assessing its own ground system options, both 
for current DMSP fly operations and for DWSS or whatever that 
will be, and I am not aware of any detailed plans from them 
yet.
    Mr. Harris. Now, with regards to the GAO report, this 
controversy about whether the cap is, whether the shortfall is 
$1.7 or $2.7 billion, because the GAO report states that NOAA 
validated the cost of the full set of JPSS functions would be 
$11.3 billion from FY 2012 to 2028. After adding the agency's 
cost of $3.3, the program's lifecycle cost estimate total, 
$14.6, which is $2.7 billion higher than that $11.9 billion 
estimate for JPSS when NPOESS was disbanded in 2010.
    So according to NOAA officials this increase is primarily 
due to a four-year extension of the program, the addition of 
previously unbudgeted items such as free flyers, costs 
associated with transitioning contracts from DOD to NOAA, and 
the program's decision to slow down work on lower-priority 
elements because of the budget constraints of 2011.
    The GAO then states that in working with OMB to establish 
the President's FY 2013 budget request NOAA officials stated 
that they agreed to fund JPSS at roughly $900 million per year 
through 2017, merge funding for the two climate sensors into 
the JPSS budget, and to cap the JPSS lifecycle cost at $12.9 
billion through 2028.
    Because this cap is $1.7 billion below the $14.6 lifecycle 
cost, NOAA decided to remove selected elements from the 
satellite program.
    Now, so do you--is a shortfall of $1.7 or $2.7 below the 
expected lifecycle cost? Mr. Powner, maybe you can--what is 
your finding?
    Mr. Powner. So the gap is $1.7 billion. It is from $14.6, 
that was the cost when you reconciled the various cost 
estimates, but the program, just to keep it simple, the program 
was capped at $12.9, so there was this $1.7 that the program 
was trying to get down to. And, again, I think their approach 
as we understand it is there are two primary ways in which they 
are going to reduce--address the $1.7 million gap. One is they 
found a more efficient way to operate and maintain the 
satellites which Dr. Sullivan referred to and then also, too, 
there is this savings through this ride-share arrangement with 
the free flyers where the climate sensors are still included, 
but they are going to fly them outside of the JPSS Program.
    There are still some details we want to see about both 
those things and how that tallies up to $1.7. That is why I 
made the comments, the question, still questions about 
operating within the $12.9 cap.
    Mr. Harris. Dr. Sullivan, is that an accurate assessment of 
where the $1.7 is going to be made up?
    Dr. Sullivan. It is, sir.
    Mr. Harris. Okay. Thank you very much.
    I recognize Mr. McNerney for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Powner, one thing that really stuck out about your oral 
testimony here was the 48 percent confidence level that NASA 
will meet the 2015 launch date. Is that in your mind the 
biggest threat, is that, not making that launch date?
    Mr. Powner. Yeah. So a couple things. We did some very 
detailed schedule analysis, and so there were things we went 
into great detail on, two of the sensor schedules as well as 
the spacecraft and ground, and we had some questions about how 
the schedules were being managed and the rigor you want with 
that. Ultimately what that all means is it calls into question 
whether you can hit key milestones. So these milestones all 
need to be hit to ultimately reach the launch date.
    That coupled with the fact that their own internal 
assessment showed that there was only a 48 percent confidence 
level that they were going to hit the October, 2015, date 
raised questions about whether they will be able to do that. I 
think, and we are under the impression that if you raised it to 
70 percent confidence level, which is, I think, what the 
program ultimately likes to operate under, that does push that 
launch date into early 2016. I think there is a 4- or 5-month 
slip roughly there, but those are the questions that, you know, 
need to be considered going forward, how solid is that October 
2015. There are question marks there clearly.
    Mr. McNerney. Can you be as specific as you can in giving 
us recommendations on how we can reach that October 2015 launch 
date or achieve that date?
    Mr. Powner. Well, one of the things we did do in our report 
is we had very detailed recommendations on how the program 
could be more rigorous in managing their schedules. So, for 
instance, we found things like not all subcontractor activities 
were included in schedules, critical paths weren't identified. 
That is very important so you can identify the long pole in the 
tent, those types of things.
    And those are the recommendations we have, so hopefully 
that will be helpful in ultimately achieving that launch date.
    Mr. McNerney. Thank you.
    Mr. Watkins. The one thing I would like to add is----
    Mr. McNerney. Sure.
    Mr. Watkins [continuing]. As David pointed out, Mr. Powner 
pointed out, clearly we have listened to and taken seriously 
the recommendations from GAO. We have already implemented a lot 
of the changes or improvements that he identified with respect 
to scheduling and reporting.
    The other thing that I would say is I think the largest 
risk to that October 2015 launch date right now is, again, with 
stability associated with funding, again, because of where we 
are today at 615 and needing to go to 803. In the next fiscal 
year if we are under a continuing resolution, it is going to 
have a negative impact on our ability to maintain the October 
2015 launch readiness date in addition to the items that he 
pointed out.
    Mr. McNerney. That makes sense. It was gratifying to hear 
about your partnership with NOAA on the Joint Polar Satellite. 
I want to get a good feel for how much benefit has been 
achieved by that. Are the roles for each of your agencies and 
the responsibilities, decision-making authority, governance and 
program oversight clear? In other words, are these clear 
between your two agencies?
    Mr. Watkins. Yes, they are, and in fact, I mean, I think 
one of--since the separation between the Defense and the 
civilian side for weather satellites, if you look at the 
overall performance that we, NOAA and NASA, have been able to 
achieve, first and foremost with maintaining that we would 
launch Suomi NPP on time in the October 2011 time period, we 
maintained that schedule. When you look across the schedules 
associated with the JPSS-1, we are currently on track. We share 
meetings together, the key decision points are jointly chaired 
between our respective agencies, and our programs are fully 
integrated at a Green Tech facility, which is outside of 
Goddard Space Flight Center. The teams are working extremely 
well, and it is a very good partnership.
    Dr. Sullivan. If I may, Mr. McNerney, I just, I would 
endorse Marcus's comments. There is a 40-year-long partnership 
between NASA and NOAA in providing the Nation with weather 
satellites. We came back to that model in essence with the 
unwinding of the NPOESS Program, and if I could use the 
analogy, since JPSS moved out of the dysfunctional household of 
NPOESS, we have got a new team aboard. They have set fresh 
marks. They have, and, again, the 13 months I have been around 
they have been very consistently meeting those marks. We see 
great value, great productivity in the partnership and great 
value for the taxpayer, not duplicating a top-notch space 
acquisition function within that--within NOAA when we have an 
outstanding one in the partner agency.
    Mr. McNerney. Okay. I have one more question, Mr. Chairman. 
Has there been analysis of the anticipated operational period 
of the NPP satellite? What are we looking at here in terms of 
what confidence we have in that continued performance of that 
instrument?
    Mr. Watkins. I will take the beginning of that. Again, the 
NPP spacecraft was developed for a five-year life, and you 
know, we have launched it last October. The calibration 
validation period is going along as planned. In fact, we are a 
little ahead of schedule with some of the products that have 
already been received well by the National Weather Service and 
implemented into their algorithms that has led towards 
additional forecasting capabilities. The checkout across all of 
the instruments is looking good. The satellite is operating 
well.
    Again, you know, there are issues that you have the first 
time you are flying a spacecraft, and this one wasn't to be 
operational initially, but we haven't seen anything that is 
outside of the ordinary with launching of a new satellite.
    Dr. Sullivan. And the ground system is performing well. We 
are making progress towards adding, again, the redundancy and 
IT security robustness that we will need to have in place when 
JPSS-1 comes along to meet the criticality one requirements 
that NOAA has.
    It was remarked, and I forget by whom earlier in the 
hearing that none of the instruments on NPP are performing as 
they should. I ask Mr. Watkins to correct me if I misstate 
anything, but my tracking of the technical data is that all of 
them are, in fact, performing at or above spec with some 
anomalies that are needed to be worked out, but the technical 
team has shown a very good acumen of jumping on top of those 
and digging down and understanding the root causes and 
developing corrective actions, which is what you do with space 
systems.
    Mr. McNerney. Okay. Thank you. My time is up.
    Mr. Harris. Thank you very much. I want to thank the 
witnesses for your valuable testimony and the Members for their 
questions. The Members of either Subcommittee may have 
additional questions for the witnesses, and we will ask you to 
respond to those in writing.
    The record will remain open for two weeks for additional 
comments from Members. The witnesses are excused. The hearing 
is now adjourned.
    [Whereupon, at 3:47 p.m., the Subcommittees were 
adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
[GRAPHIC] [TIFF OMITTED] 74731.055

[GRAPHIC] [TIFF OMITTED] 74731.056

[GRAPHIC] [TIFF OMITTED] 74731.057

[GRAPHIC] [TIFF OMITTED] 74731.058

[GRAPHIC] [TIFF OMITTED] 74731.059

[GRAPHIC] [TIFF OMITTED] 74731.060

[GRAPHIC] [TIFF OMITTED] 74731.061

[GRAPHIC] [TIFF OMITTED] 74731.062

[GRAPHIC] [TIFF OMITTED] 74731.063

[GRAPHIC] [TIFF OMITTED] 74731.064

[GRAPHIC] [TIFF OMITTED] 74731.065

[GRAPHIC] [TIFF OMITTED] 74731.066

[GRAPHIC] [TIFF OMITTED] 74731.067

[GRAPHIC] [TIFF OMITTED] 74731.068

[GRAPHIC] [TIFF OMITTED] 74731.069

                               Appendix 2

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

Weather-X Blog by Cliff Mass: Submitted by Representative Andy Harris, 
            Chairman, Subcommittee on Energy and Environment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
